                             Office of the Inspector General

September 28, 1998

Kenneth S. Apfel

Commissioner of Social Security



Acting Inspector General



Social Security Administration’s Controls over Retirement, Survivors and Disability

Insurance Installment Payments



The attached final report presents the results of our review, “Social Security

Administration’s Controls over Retirement, Survivors and Disability Insurance

Installment Payments” (A-01-96-61038). Our objective was to determine the adequacy

of specific internal controls implemented by the Social Security Administration to

control installment payments of Retirement, Survivors and Disability Insurance benefits.


You may wish to comment on any further action taken or contemplated on our

recommendations. If you choose to offer comments, please provide them within the

next 60 days. If you wish to discuss the final report, please call me or have your staff

contact Pamela J. Gardiner, Assistant Inspector General for Audit, at (410) 965-9700.





                                                James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



       SOCIAL SECURITY
 ADMINISTRATION’S CONTROLS
 OVER RETIREMENT, SURVIVORS
  AND DISABILITY INSURANCE
   INSTALLMENT PAYMENTS

 September 1998   A-01-96-61038




AUDIT REPORT

                 E X E C U TI V E S U M M AR Y 


OBJECTIVE

The objective of this audit was to determine the adequacy of specific internal controls
implemented by the Social Security Administration (SSA) to control installment
payments of Retirement, Survivors and Disability Insurance (RSDI) benefits.

BACKGROUND

In certain situations, RSDI benefits are not paid to a claimant when due, but

accumulate and are later paid by SSA in installments. For example, when benefits are

awarded to a claimant who needs a representative payee (Rep Payee), and the payee

has not yet been appointed, the payments made on behalf of the beneficiary are held

by SSA as accumulated benefits. Once a payee is appointed, the claims authorizer

may pay the benefits. Depending on the amount of the accumulated benefits, the

claims authorizer may elect to pay a lump sum, or make monthly installment payments.

If the payment is to be made on an installment basis, then that payment will be made in

addition to the regular monthly benefit payment.


In 198 of the 200 cases included in our review, the beneficiary was entitled to benefits

based upon drug addiction and/or alcoholism (DA&A). The “Contract with America

Advancement Act of 1996” (Public Law (P.L.) 104-121) amended the Social Security

Act to deny disability benefits to individuals for whom DA&A is a contributing factor

material to the disability determination. Effective March 29, 1996, benefits were no

longer awarded to individuals based on DA&A. Benefit payments to DA&A

beneficiaries were terminated January 1, 1997, unless the basis for disability was

redetermined and SSA found that DA&A was no longer material to the beneficiary’s

disability. SSA notified 209,374 beneficiaries that their condition would be reviewed as

a result of P.L. 104-121. Of those who received notices, 140,250 (67 percent)

beneficiaries’ payments were terminated.


Prior to passage of P.L. 104-121, accumulated benefits due to an entitled beneficiary

because of DA&A were required to be paid in installments. This legislation eliminated

the requirement to pay past due benefits in installments. Effective with a

redetermination of disability, any remaining installment amount can be paid in a lump

sum. However, for those DA&A beneficiaries whose benefits terminated

January 1, 1997, the old law governing their entitlement continues to apply. Hence,

any installment payments remaining due will continue to be paid in installments through

a Rep Payee.

RESULTS OF REVIEW

                                            i
SSA has not ensured that installment payments are correctly paid. In 108 of 200 cases
with installment payments included in our review, the installment amounts were not
correctly paid. For the 200 cases, the amount to be paid in installment payments was
$1,429,400. For the 108 cases containing payment errors, 46 were overpaid $116,555
and 62 were underpaid $64,538. Projecting these results to the 6,169 RSDI
beneficiaries receiving installment payments as of February 1997, we estimate
1,326 beneficiaries have been overpaid $3,660,428 and 1,789 beneficiaries have been
underpaid $1,760,596.

These 46 overpayments and 621 underpayments resulted for various reasons:

•	 In 41 cases, clerical errors occurred which caused installments to be overpaid.
   Even though we could not definitively determine the causes of these clerical errors,
   Program Operations Manual System (POMS) section DI 90070.200, which provides
   instructions for processing installment payments after January 1997 termination of
   benefits to DA&A beneficiaries, probably contributed to the number of
   overpayments. This section instructs SSA employees to use the amount in the
   Current Total Installment Amount (CTIA) field on the Master Beneficiary Record
   (MBR) when establishing the installment payment schedule. However, paying the
   amount in this field, without a proper review of the beneficiary’s record, resulted in
   payments being processed for the wrong amount.

•	 In five cases, separate installment payments were paid twice in the same month,
   which resulted in overpayments.

•	 In 46 cases, monthly checks that included installment payments were held, stopping
   the payments from being processed. The interaction of the hold check action and
   the automated installment balance adjustment resulted in incorrect remaining
   installment balances and those 46 cases being underpaid. The POMS instructions
   cited above led to balances being paid incorrectly since the beneficiary’s record was
   not reviewed prior to payment.

•	 In 11 cases, a Manual Adjustment, Credit and Award Process (MADCAP) action that needed
   to be processed to pay the remainder of the installment balance was not processed,
   causing these installments to be underpaid.

•	 In 11 other cases, beneficiaries were underpaid because installment payments
   stopped for undeterminable reasons prior to the full installment balance being paid.


1
  Sixty-two of 200 installment cases have been underpaid. However, the detailed cases total
72 because some installments were underpaid for more than 1 reason. For example, six installments
were underpaid due to a held check and the remainder not being paid through a Manual Adjustment,
Credit and Award Process action. These six installments are in both categories.


                                                 ii
•	 In four cases, an underpayment special payment amount (SPA) was set up on the
   MBR to track the remaining installment balance. The amount set up in the
   underpayment SPA field was understated. As a result, even after the SPA amount
   is paid, these beneficiaries will be underpaid.

CONCLUSIONS AND RECOMMENDATIONS

Though fewer individuals may be receiving installment payments in the future because
of passage of P.L. 104-121, SSA’s automated system for controlling installment
payments will continue to be used. Thus, SSA’s system of internal controls needs to be
strengthened over the manual entering of initial payment balances into the automated
system and manual override of the established payment schedule.

We recommend that SSA:

•	 Review the records of the 6,169 beneficiaries with installment payments included in
   our review so that the approximately 1,326 beneficiaries overpaid an estimated
   $3,660,428 and approximately 1,789 beneficiaries underpaid an estimated
   $1,760,596 can be identified, overpayments recovered, and underpayments
   properly paid.

•	 Require review and signature by a second employee to establish an initial payment
   balance or to manually override the established payment schedule to ensure that
   installment balances are accurately paid.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our first recommendation, but did not
agree with our second recommendation. With regard to our second recommendation,
SSA stated that the intricacies of implementing P.L. 104-121 led to these cases being
processed incorrectly. As such, SSA does not believe that it is prudent to initiate a
two-tier process for the manual aspects of installment processing when the accuracy
findings were based on a sample almost exclusively made up of a problematic workload
that no longer exists.




                                          iii
OIG RESPONSE

We agree that since the DA&A workload no longer exists, fewer installment payments
will be made in the future. However, we continue to believe that the problems found in
our review in manually calculating payment amounts were caused by clerical errors and
that internal controls need to be strengthened.




                                          iv
                            TAB L E O F C O N TE N TS


                                                                                                                      Page


EXECUTIVE SUMMARY ......................................................................................... i


INTRODUCTION ................................................................................................... .1


RESULTS OF REVIEW .......................................................................................... 3


   OVERPAID CASES ............................................................................................ 3


         •       Clerical Errors......................................................................................... 3

         •       Two Payments in 1 Month ...................................................................... 4


    UNDERPAID CASES ........................................................................................ 4


             •     Held Checks ........................................................................................ 5

             •     Remainder of Installment Balances ..................................................... 5

             •     Installment Stopped ............................................................................. 5

             •     Understated SPA Field ........................................................................ 5


   ONGOING INSTALLMENTS ............................................................................. 6


CONCLUSIONS AND RECOMMENDATIONS....................................................... 7


APPENDICES

Appendix A - Methodology and Results of Statistical Sampling
Appendix B - SSA’s Comments
Appendix C - Major Report Contributors
Appendix D - SSA Organizational Chart
                              I N TR O D U C TI O N


OBJECTIVE

The objective of this audit was to determine the adequacy of specific internal controls
implemented by SSA to control installment payments of RSDI benefits.

BACKGROUND

In certain situations, RSDI benefits are not paid to a claimant when due, but

accumulate and are later paid by SSA in installments. For example, when benefits are

awarded to a claimant who needs a Rep Payee, and the payee has not yet been

appointed, the benefit payments made on behalf of the beneficiary are held by SSA as

accumulated benefits. Once a payee is appointed, the claims authorizer pays the

benefits. Depending on the amount of the accumulated benefits, the claims authorizer

may elect to pay a lump sum, or make monthly installment payments. If payment is to

be made on an installment basis, then payment will be made in addition to the regular

monthly benefit payment. The claims authorizer enters “IN” in the Special Indicator

Code field. This allows the MADCAP system to issue a monthly installment payment in

addition to the regular monthly benefit payment.


Previously, SSA relied on manual diaries to cease installment payments. Often, these

diaries were processed after the maturity date, causing an overpayment. For RSDI

benefits, SSA initiated an automated system to cease ongoing2 installment payments

timely. However, SSA’s installment payment system relies on manual processes.

Specifically, SSA relies on manual processes to establish beginning installment

balances and to pay remaining installments to beneficiaries whose payments have

been terminated.


In 198 of the 200 cases included in our review, the beneficiary was entitled to benefits

based upon DA&A. The “Contract with America Advancement Act of 1996”

(P.L. 104-121) amended the Social Security Act to deny disability benefits to individuals

for whom DA&A is a contributing factor material to the disability determination.

Effective March 29, 1996, benefits are not awarded to individuals based on DA&A.

Benefit payments to DA&A beneficiaries were terminated January 1, 1997, unless the

basis for disability was redetermined and SSA found that DA&A was no longer material

to the beneficiary’s disability. SSA notified 209,374 beneficiaries that their condition

would be reviewed as a result of P.L. 104-121. Of those who received notices,

140,250 (67 percent) beneficiaries’ payments were terminated as of May 30, 1997.


2
  Ongoing installments are installment payments made to RSDI beneficiaries who are in current pay
status. For these cases, the installment payment is paid in addition to the regular monthly payment.


                                                   1

Prior to passage of P.L. 104-121, accumulated benefits due to an entitled beneficiary
because of DA&A were required to be paid in installments. Monthly installments could
only be made to the extent that the sum of the installment and the amount of any
current benefit payable did not exceed twice the amount of the individual’s benefit rate
for the preceding month. P.L. 104-121 eliminated the requirement to pay past due
benefits in installments to former DA&A beneficiaries who remained eligible for benefits
because of another impairment. Effective with a redetermination of disability, any
remaining installment amount should be paid in a lump sum. However, for those DA&A
beneficiaries whose benefits terminated January 1, 1997, the old law governing their
entitlement continues to apply. Hence, any installment payments remaining due will
continue to be paid in installments through a Rep Payee.

SCOPE AND METHODOLOGY

To accomplish our objective, we:

•   reviewed applicable Federal laws, regulations, and program guidelines;

•	 sampled 200 cases from 6,169 which had installment balances as of February 1997
   (see Appendix A for details of our sampling methodology);

•	 reviewed SSA records of installment benefits paid on behalf of the 200 beneficiaries
   in our sample; and

•	 consulted with individuals in the program service centers responsible for the cases
   included in our review.

We assessed the internal controls over establishing, maintaining, and eliminating
installment payment balances. Our audit was conducted between May 1997 and
March 1998 in Boston, Massachusetts. Our audit was conducted in accordance with
generally accepted government auditing standards.




                                           2

                   R E S U L TS O F R E V I E W 


                                                             SSA has not ensured that
             Sample of Cases Reviewed                        installment payments are
                                                             correctly paid. In 108 of the
                        200 Total                            200 cases sampled, the
                                         Underpaid           installment balance was not
          Overpaid                        (62 cases)         correctly paid. For the
         (46 cases)                          31%             200 cases, the amount to be
            23%                                              paid in installments was
                                                             $1,429,400. For the
                                                             108 cases, 46 installments
                                                             were overpaid $116,555 and
                                                             62 installments were
                                      Correctly              underpaid $64,538.
                                        Paid                 Projecting these results to the
                                     (92 cases)              6,169 RSDI beneficiaries
                                        46%
                                                             receiving installment
                                                             payments as of
                                                             February 1997, we estimate
1,326 beneficiaries have been overpaid $3,660,428 and 1,789 beneficiaries have been
underpaid $1,760,596. In 38 of the 46 cases overpaid, the beneficiaries were no
longer receiving benefits at the time of our review; however, in 8 of the overpaid cases,
the beneficiaries were still receiving benefits at the time of our review. These cases
were overpaid, even though automated controls had been instituted by SSA.

OVERPAID CASES

In 46 of the 200 cases included in our review, the beneficiaries were overpaid. These
46 overpayments were caused by clerical errors and multiple installment payments in
the same month for the same beneficiary.

Clerical Errors

•	 In 41 of the 46 overpaid cases, clerical errors occurred which caused the
   beneficiaries to be overpaid $112,508. Of the 41 clerical errors in our review,
   39 were processed by the Office of Central Operations (OCO). We interviewed a
   Payment Determination Specialist at OCO, but the specialist was unable to
   determine the cause of these clerical errors. The Payment Determination Specialist
   stated that once an incorrect action is taken, it is very difficult to determine “what”




                                             3

   and “why” it was done. The types of clerical errors involved were varied and
   numerous, some examples are as follows:

•	 In 21 of 41 cases overpaid, manual payments were made through the critical
   payment system.

•	 In two cases, a full monthly installment amount rather than the remaining installment
   balance was paid as the final payment.

•	 In one case, the amount paid in installments included a 7-month period in which the
   beneficiary was incarcerated and not entitled to benefits. However, the suspension
   for incarceration was not taken into account when the ending installment balance
   was paid. This beneficiary was overpaid $10,446 of which $7,994 is attributable to
   the period of incarceration.

•	 In one case, the Benefits Authorizer (BA) took action to pay the last of the
   installment balance, but erroneously paid out too much money. The BA released an
   $8,135 payment when the remaining installment balance was $1,220. This action
   caused the beneficiary to be overpaid $6,915.

We do not have conclusive evidence as to the cause of these overpayments. However,
SSA’s procedures for processing installment payments after the January 1997
termination of benefits to DA&A beneficiaries stated that the SSA employee should use
the amount in the CTIA field on the MBR when establishing the installment payment
schedule. Paying the amount in this field, without a proper review of the beneficiary’s
record, appears to have contributed to the cause of these overpayments. Additionally,
we spoke with an Operations Analyst at the Western Program Service Center and were
informed that even though these instructions said to pay the amount in the installment
field, he manually recalculated the amount due the beneficiary. This analyst calculated
the amount to be paid in two cases included in our review. In both cases, the analyst
determined that the CTIA amount on the MBR was incorrect.

Two Payments in 1 Month

In 5 of 46 overpaid cases, 2 installment payments were paid in the same month to the
same beneficiary. In all five cases, a regular installment payment and a manual
installment were both paid. These payments caused beneficiaries to be overpaid
$4,047. In four of these five cases, the two installment payments were made in
January 1997.

UNDERPAID CASES
In 62 of the 200 cases included in our review, beneficiaries were underpaid. These
underpayments happened for various reasons, including: (1) held checks,



                                           4

(2) remainder of installment balance not being paid, (3) installments stopping prior to
being fully paid, and (4) understated SPAs.

Held Checks

In 46 cases, a check that included an installment payment was held, resulting in
installment payments being underpaid. The total underpayment amount related to
these checks being held is $34,182. Forty-one of the 46 held checks occurred in
January 1997. P.L. 104-121 states that benefits to individuals entitled as DA&A
beneficiaries terminated January 1, 1997, unless the basis for their disability was
redetermined and SSA found that DA&A was no longer material to the disability
determination. All 46 beneficiaries were entitled to benefits based upon DA&A and
benefits for these individuals terminated in January 1997. As stated previously, SSA’s
procedures for processing installment payments after January 1997 stated that the
employee should use the amount in the CTIA field on the MBR when establishing the
installment payment schedule. Paying the amount in this field without a proper review
of the beneficiaries’ records contributed to the cause of these underpayments. The
interaction of the hold check action and the automated installment balance adjustment
resulted in incorrect remaining installment balances and 46 cases being underpaid.

Remainder of Installment Balances

In 11 cases, MADCAP actions were not processed to pay the remainder of the
installment balance. In each of these cases, the MBR showed that the remainder
would be paid through a MADCAP action; however, necessary actions were not taken
and these cases were underpaid. The total underpayment amount attributed to the
MADCAP actions not being processed is $6,938.

Installment Stopped

In 11 cases, installment payments stopped for an undeterminable reason prior to the
full installment balance being paid. SSA officials could not determine why these
installment payments were stopped because the action was not documented in the
case folder or on the MBR. These 11 beneficiaries have been underpaid $20,841.

Understated SPA Field

In four cases, installment payments stopped and an underpayment SPA was set up on
the MBR to track the remaining installment amount. Three of the four SPAs were
established because the beneficiaries died. In these cases, the underpayment SPA
was set up for less than the amount that still needed to be paid in installments. As a
result, even after these underpayment SPAs are paid in full, these four beneficiaries
will still be underpaid $2,578.




                                            5

ONGOING INSTALLMENTS

In 38 of 46 cases overpaid, the beneficiaries were no longer receiving benefits at the
time of our review. However, in eight of the overpaid cases, the beneficiaries were still
receiving benefit payments at the time of our review. These cases were overpaid even
though automated controls had been instituted by SSA. Our discussions with SSA
officials and review of internal controls over installments indicated that controls over
ongoing installment payments to beneficiaries in current pay status should preclude
overpayments from occurring. We found that:

•	 In five of the eight overpaid cases, automated controls were overridden and
   installments were manually paid.

•	 In two cases, the amount set up as an installment balance was fully paid. However,
   the amount initially set up to be paid in installments was incorrect and these two
   beneficiaries were overpaid.

•	 One installment was overpaid because payments continued after the installment
   balance was fully paid. This case was reviewed by a specialist at OCO, who could
   not determine why payments continued despite the automated controls.




                                            6

 CONCLUSIONS AND RECOMMENDATIONS


Prior to beginning our review, SSA officials informed us that automated controls were in
place to ensure that installment balances could not be overpaid. However, during our
review, we determined that SSA relies on manual processes to establish beginning
installment balances and to pay remaining installments to beneficiaries whose
payments have been terminated. Also, automated controls were sometimes manually
overridden and more than the amount in the installment balance was paid.

Though fewer individuals may be receiving installment payments in the future because
of passage of P.L. 104-121, SSA continues to use an automated system for controlling
installment payments. Thus, SSA’s system of internal controls needs to be
strengthened over the manual entering of initial payment balances into the automated
system and manual override of the established payment schedule. Internal controls
would be strengthened by adding a control procedure to have a second employee
review the manual calculation of beginning installment balances or whenever an
established payment schedule is manually overridden.

We recommend that SSA:

1. 	 Review the records of the 6,169 beneficiaries with installment payments included in
     our review so that the approximately 1,326 beneficiaries overpaid an estimated
     $3,660,428 and approximately 1,789 beneficiaries underpaid an estimated
     $1,760,596 can be identified, overpayments recovered, and underpayments
     properly paid.

2. 	 Require review and signature by a second employee to establish an initial payment
     balance or to manually override the established payment schedule to ensure that
     installment balances are accurately paid.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our first recommendation, but did not
agree with our second recommendation. Specifically, SSA agreed to review the
records of beneficiaries with installment payments to ensure that these beneficiaries
were properly paid. With regard to our second recommendation, SSA stated that the
intricacies of implementing P.L. 104-121 were the reason these cases were processed
incorrectly. As such, SSA does not believe that it is prudent to initiate a two-tier
process for the manual aspects of installment processing when the accuracy findings
were based on a sample almost exclusively made up of a problematic workload that no
longer exists.


                                            7

OIG RESPONSE

We agree that since the DA&A workload no longer exists, fewer installment payments
will be made in the future. However, we continue to believe that the types of problems
found in our review when manually calculating the payment amount are caused by
clerical errors and not related to the beneficiaries’ impairment. As such, a second
review of the manual calculation before the payment is made would be a prudent
measure in ensuring that payment amounts are correct. Internal controls over manual
processes are inherently weak and should be supplemented to ensure that calculations
are accurate. Since SSA indicates that fewer installment payments will be made in the
future, the resources needed for a second employee to verify the manual calculation
should not be significant.




                                          8

APPENDICES

                                                                                         APPENDIX A


        METHODOLOGY AND RESULTS OF

            STATISICAL SAMPLING


From the Social Security Administration, we obtained extracts from the Master
Beneficiary Record of cases that had an entry in the Current Ongoing Installment
Amount field in February and April of 1997. We compared these extracts and stratified
them for sampling purposes. The first stratum consisted of 1,537 cases which had
installment payments in February 1997 but the installment payments ended by
April 1997. The second stratum consisted of 4,632 cases which had installment
payments in February 1997 and were still ongoing in April of 1997. Using a stratified
random sample design, we randomly sampled 100 of the 1,537 cases and 100 of the
4,632 cases. Overall, 108 beneficiaries have been overpaid or underpaid. For the
108 beneficiaries, 46 were overpaid $116,555 and 62 were underpaid $64,538.

            Sample                        Installment Installment
                                          Ended April   Ongoing
            Results                          1997       April 1997                Total
 Population Dollars                           $436,414    $992,986                $1,429,400

 Population Size                                  1,537       4,632                    6,169

 Sample Size                                        100         100                      200

 Attribute Projections
 Sample Overpayments                                   26              20                  46
 Projected Overpayments                               400             926               1,326
 Precision (plus or minus)                                                                322
 Sample Underpayments                                  35              27                  62
 Projected Underpayments                              538           1,251               1,789
 Precision (plus or minus)                                                                357
 Dollar Projections
 Overpayment Dollars                            $56,168    $60,387                  $116,555
 Projected O/P Dollars                         $863,305 $2,797,123                $3,660,428
 Precision (plus or minus)                                                        $1,464,482
 Underpayment Dollars                           $39,704    $24,834                   $64,538
 Projected U/P Dollars                         $610,258 $1,150,338                $1,760,596
 Precision (plus or minus)                                                         $497,316
      Note: All precision figures were calculated at the 90 percent confidence level.
                  APPENDIX B



SSA’s COMMENTS

                                                                         APPENDIX C



       MAJOR REPORT CONTRIBUTORS


Office of the Inspector General

Roger Normand, Director, Northern Program Audit Division

Rona Rustigian, Deputy Director

David Mazzola, Auditor-in-Charge




For additional copies of this report, please contact the Office of the Inspector

General’s Public Affairs Specialist at (410) 966-9135. Refer to Common

Identification Number A-01-96-61038.

                        APPENDIX D



SSA ORGANIZATIONAL CHART

